                                                                    4
                            CLOSEOUT FOR CASE ~ 9 9 0 ~ 0 0 1 9
On 7 April 1999, a program officer1 brought allegations of misconduct in science to our attention.
In a letter to the program officer, the PI on an NSF proposal2 said that NSF had selected a
collaborator3 on his proposal as an ad hoc reviewer of it. Allegedly, an unknown subject at the
collaborator's institution violated the confidentiality of peer review by opening the collaborator's
review package, photocopying the proposal, and sending the photocopy to the collaborator's
supervisor4 with an unsigned note suggesting there was a problem with the proposal because the PI
had plagiarized one table of data into the PI's proposal.

The program officer acknowledged that he had missed the fact that the collaborator was listed in the
proposal when he selected reviewers. When the collaborator received the proposal from NSF, he
notified the program officer that he had a conflict of interests and would not review the proposal.

With respect to the alleged breach of the ~ o ~ d e n t i a l i tof
                                                                  y peer review, we learned that the
collaborator's supervisor was not able to determine who had provided him with the copy of the PI'S
proposal. We are aware of no evidence that information in the confidential proposal was released
outside of its limited circulation to the supervisor. We learned that he discussed concerns about
confidentiality of materials at the laboratory and the seriousness of opening others' mail with
members of the research group. We concluded that the supervisor had taken suscient and
appropriate action.

With respect to the alleged plagiarism, we learned that, initially, the collaborator planned to be a
co-PI on the NSF proposal, but later decided to be a participant. During the preparation of the
proposal, the collaborator provided the PI with a copy of a funded proposal he and three other
scientists, one of whom was the collaborator's supervisor, submitted to another federal agency.'
The collaborator encouraged the PI to use this information in his NSF proposal. According to the
collaborator's supervisor, the data used in the PI's proposal are shared data at the laboratory and, as
such, the collaborator and PI could use it in the NSF proposal. The collaborator's supervisor
informed the PI, who had volunteered to withdraw the proposal, that withdrawal was not necessary.
We concluded that there was no substance to the allegation of plagiarism.

This inquiry is closed and no further action will be taken.

cc: Integrity, IG




                                            Page 1 of 1                                      M 99-19
